No.

•SnOttyt

Supreme Court o! tFje Unitet) States
PAMELA DIANE STARK,
Petitioner,
v.

FILED
JAN 07 2021

JOE EDWARD STARK,
Respondent.

On Petition For A Writ Of Certiorari
To The Court Of Appeals Of Tennessee At Jackson

PETITION FOR WRIT OF CERTIORARI

Pamela Diane Stark
Pro Se
673 North McLean Boulevard
Memphis, Tennessee 38107
901-488-5817
pamand3ds@aol.com

OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

I.
QUESTIONS PRESENTED FOR REVIEW
1.

Whether a state trial court can create a hybrid
form of contempt which avoids traditional consti­
tutional and legislative safeguards and prevents
appellate review through creating mootness.

2.

Whether the application of mootness to a con­
tempt finding allows for a denial of appellate re­
view of the underlying restraining order that
constitutes a prior restraint of speech and a disen­
franchisement of the right to petition when doing
so forecloses any future review as well.

11

II.
PARTIES TO THE PROCEEDINGS
The parties involved are identified in the style of
the case.
III.
RELATED PROCEEDINGS
•

Pamela Diane Stark u. Joe Edward Stark, W201900650-COA-R3-CV, Court of Appeals of Tennessee
at Jackson, Judgment entered January 31, 2020.

•

Pamela Diane Stark v. Robert Weiss, No. 2:19-cv02406, U.S. District Court for the Western District
of Tennessee, Western District, Judgment entered
November 27, 2019.

•

Pamela Diane Stark v. City of Memphis et al., No.
19-cv-2396, U.S. District Court for the Western
District of Tennessee, Western District, litigation
pending.

Ill

IV.
TABLE OF CONTENTS
Page
I.
II.
III.
IV.
V.
VI.
VII.
VIII.
IX.

Questions Presented for Review................
i
Parties to the Proceedings.......................... n
Related Proceedings.................................... n
Table of Contents......................................... in
Table of Authorities.....................................
v
Petition for Writ of Certiorari................ .
1
Opinion Below..............................................
1
Jurisdiction...................................................
1
Constitutional Provisions and Legal Princi­
ples Involved.................................................
2
X. Statement of the Case................................. 2
XI. Reasons for Granting the Writ..................
9
A. Contempt Authority............................. 10
1. Summary Contempt Authority...... 11
2. Other Contempt Considerations .... 12
B. Mootness................................................. 13
1. Underlying Principles and Due Pro­
cess Consideration............................ 14
2. Compounding of Constitutional Error
17
C. Restraining Order.............................
22
XII. Conclusion.................................................
25
XIII. Appendix
Opinion, Court of Appeals of Tennessee at
Jackson (January 31, 2020)............................. App. 1

IV

TABLE OF CONTENTS - Continued
Page
Order, Court of Appeals of Tennessee at Jackson (September 6, 2019)
App. 20
Order, Court of Appeals of Tennessee at Jackson (May 15, 2019)
App. 22
Order on Direct Contempt, Circuit Court of
Tennessee for the Thirteenth Judicial District
at Memphis, Shelby County (March 29,
2019)
App. 25
Order on Petition for Restraining Order, Thir­
teenth Judicial District at Memphis, Shelby
County (February 13, 2019)
App. 28
Transcript, Circuit Court of Shelby County,
Tennessee for the Thirteenth Judicial District
at Memphis (February 7, 2019)
App. 32
Mandatory Injunction, Circuit Court of Ten­
nessee for the Thirtieth Judicial District at
Memphis, Shelby County (June 29, 2018).... App. 59
Order, Supreme Court of Tennessee at Jackson (August 10, 2020)
App. 62
Order, United States District Court for West­
ern District of Tennessee, Western District.. App. 63
Petition for Restraining Order, Circuit Court
of Shelby County, Tennessee for the Thirtieth
Judicial District
App. 71
Petition, Circuit Court of Shelby County, Ten­
nessee for the Thirtieth Judicial District at
Memphis
App. 76

V

V.
TABLE OF AUTHORITIES
Page
Cases
Aetna Life Ins. Co. u. Haworth, 300 U.S. 227
(1937)..................................................................

14

Bancorp Mortg. Co. v. Bonner Mall, 513 U.S. 18
(1994)..................................................................

18
Bloom v. Illinois, 391 U.S. 194 (1968).................
11
Bridges v. California, 314 U.S. 252 (1941)..........
11
Carafas v. Lavellee, 391 U.S. 234 (1968)
15,16,18
Codispoti v. Pennsylvania, 418 U.S. 506 (1974)..
13
Cooke v. United States, 267 U.S. 517 (1925)........
11
Craig v. Harney, 331 U.S. 367 (1947)..................
13
Doe v. Bd. of Pro. Responsibility, 104 S.W.3d 465
(2013)..................................................................

20
Fiswick v. United States, 329 U.S. 211 (1946).....
17
Flast v. Cohen, 392 U.S. 83 (1968)........................
14
Harris v. United States, 382 U.S. 162 (1965)......
12
Hicks v. Feiock, 485 U.S. 624 (1988)....................
10
In re Michael, 326 U.S. 224 (1945).......................
12
In re McConnell, 370 U.S. 230 (1962).................. 12,21
Konvalinka v. Chattanooga-Hamilton Cty. Hosp.
Auth., 249 S.W.3d 346 (Tenn. 2008).................

22

Mine Workers v. Bagwell, 512 U.S. 821 (1994).... 10,11,12
Morrisey v. Brewer, 408 U.S. 471 (1972)

12

VI

TABLE OF AUTHORITIES - Continued
Page
Nebraska Press v. Stuart, 427 U.S. 539 (1976)

15

Powell v. McCormack, 395 U.S. 468 (1969)....

14

Sacher v. United States, 343 U.S. 1 (1952)

12,13, 24

Sibron v. New York, 392 U.S. 40 (1968)....

17,18,19
So. Pac. Terminal Co. v. Int. Comm. Comm., 219
U.S. 498 (1911)..................................................
15
Taylor v. Haynes, 418 U.S. 488 (1974).................
12
State v. Turner, 914 S.W.2d 951 (Tenn. Crim.
App. 1995)...........................................................

13

United States Parole Comm’n v. Geraghty, 445
U.S. 388 (1980)..................................................

14

Statutes
Tenn. Code Ann. §29-9-103....

21

Tenn. Code Ann. §29-9-104....

21

Tenn. Code Ann. §29-9-105....

21

Tenn. Code Ann. §36-4-106(d)

3

Tenn. R. App. P. Rule 13(a)....

9, 22

Tenn. R. App. P. Rule 3(h)......

9, 22

Tenn. R. Civ. P. 65.04.............

23

Tenn. R. Crim. P, Rule 42.....

20

Tenn. S. Ct. R. 8, TRP 8.4(g)...

17

1
VI.
PETITION FOR WRIT OF CERTIORARI
Pamela Diane Stark petitions for a writ of certio­
rari to review the judgment of the Court of Appeals of
Tennessee at Jackson in this case.
VII.
OPINION BELOW
The Court of Appeals of Tennessee at Jackson’s
opinion is reported as Pamela Diane Stark u. Joe Edward
Stark, W2019-00650-COA-R3-CV. The Tennessee Su­
preme Court denied application for permission to ap­
peal on August 20, 2020.
VIII.
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. §1257(a). The decision of the Court of Appeals
of Tennessee at Jackson for which petitioner seeks
review was issued on January 31, 2020. The Supreme
Court of Tennessee order denying petitioner’s timely
application for discretionary review was filed on Au­
gust 10, 2020. This petition is filed within 150 days of
the Supreme Court of Tennessee’s denial pursuant to
this Court’s order of March 19, 2020 extending dead­
lines for writs of certiorari.

2

IX.
CONSTITUTIONAL PROVISIONS AND
LEGAL PRINCIPLES INVOLVED
The First Amendment prohibits abridging the
freedom of speech or the right to petition the Govern­
ment for a redress of grievances.
The Due Process Clause of the Fourteenth Amend­
ment prohibits any state from making or enforcing
any law which abridges the privileges or immunities of
citizens of the United States or from depriving any per­
son life, liberty or property without due process of law.
X.

STATEMENT OF THE CASE
Pamela Diane Stark was an assistant district at­
torney assigned as a community prosecutor to the
Memphis Police Department (“MPD”) Tillman Police
Precinct.1 App. 45. She was also married to a Memphis
police officer, Joe Edward Stark. App. 45. On June 17,
2018, Pamela Stark was assaulted and injured by Joe
Stark. App. 72. Following the assault, Pamela Stark
filed for divorce.2 App. 40. Under Tennessee law, a
1 Within hours of the court below announcing the restraining
order, MPD banned Ms. Stark from all MPD property and MPD
officers began not appearing for court proceedings Ms. Stark was
handling. This prevented Ms. Stark from performing her duties
as an assistant district attorney and she felt ethically obligated to
tender her resignation. See Federal Complaint, No. 19-cv-2396.
2 The divorce complaint was later amended to include the
tort of assault.

3

mandatory injunction went into effect upon filing of
the divorce complaint. Tenn. Code Ann. §36-4-106(d),
App. 59-61. This injunction, in relevant part, restrains
“both parties from harassing, threatening, assaulting
or abusing the other and from making disparaging re­
marks about the other to or in the presence of any chil­
dren of the parties or to either party’s employer. App.
59-61.
The Memphis Police Department handled the in­
vestigation concerning the allegations of domestic as­
sault. App. 47. In so doing, after initial attempts to
suppress the allegations failed, fellow MPD officers en­
tered a report designating Pamela Stark as the sole
suspect in a domestic assault and Joe Stark as the sole
victim.3 This report further blocked from view all infor­
mation inconsistent with these designations including
the injuries Pamela Stark sustained4.
In utter disbelief and out of concern for the effect
such designations would have on her future profes­
sional prospects, Pamela Stark worked within the
system in an attempt to have this addressed.5 After
almost six months of efforts failed, Pamela Stark
posted the following commentary on Facebook on De­
cember 14, 2018:
Anyone who knows me, knows I am a
staunch supporter of not only MPD, but law
enforcement as a whole. That being said,
3 See Federal Complaint, No. 19-cv-2396.
4 Ibid.
6 Ibid. Also, Letter to Mayor Strickland.

4
police officers are only human. Further, they
are human beings who are specifically trained
to rely on each other for their very life. Thus,
it is ridiculous to believe that law enforce­
ment, especially from the same specific force,
should ever investigate a case where there
is potential wrongdoing and/or legal conse­
quences for one of their own.
Being in charge of the investigation, they
decide what if anything is done, documented
or collected as they investigate one of their
own with no one watching over their shoulder.
I speak now as a recent victim of domestic
violence at the hands of a Memphis Police Of­
ficer. I can attest to exactly how wide “the thin
blue line can get.” Do not get me wrong, I un­
derstand it. Who among us would want to
hang one of our own out to dry. This is even
more so for the Brotherhood of Blue. However,
it is even more devastating. Who do you turn
to when those sworn to serve and protect and
enforce the law, don’t.
In addition to the Facebook post, Pamela Stark
wrote Memphis Mayor Jim Strickland detailing her
concerns and asking him to investigate misconduct
within the MPD investigation. App. 48-49.
In an effort to have the Facebook post removed,
Joe Stark filed a Petition for Restraining Order within
the divorce proceedings. App. 71. This petition sought
not only the removal of the post, but also to have
Pamela Stark enjoined from any speech “which may
jeopardize Husband’s employment and/or which may

5
impugn Husband’s reputation with the Memphis Po­
lice Department” alleging “immediate and irreparable
injury, loss, and/or damage” to the same. App. 71-73.
Pamela Stark defended against the petition question­
ing the Court’s jurisdiction and arguing First Amend­
ment protection. App. 37-38, 55.
Despite the specific averments of the petition, the
court allowed Joe Stark to proceed at hearing as a re­
quest to ‘extend’ the breadth of the mandatory injunc­
tion already in place.6 App. 36. In support thereof, proof
was submitted to the court concerning alleged prior
harassing behavior. App. 40-51. This proof, in relevant
part, included that Pamela Stark had 1) previously
filed for divorce, 2) subpoenaed police officers for depo­
sition, and 3) written Memphis Mayor Jim Strickland
concerning her allegations of police misconduct. App.
41, 43, 48-49.
Pamela Stark reiterated her jurisdictional and
First Amendment arguments at hearing. App. 37, 55.
The court was unpersuaded by the jurisdictional ar­
gument finding that the mandatory injunction prohib­
ited “any disparaging remarks about either of you to
anyone.”7 App. 38. Additionally, the court found consti­
tutional arguments inapplicable in the divorce pro­
ceedings stating:
6 Had this been the basis of the petition, Ms. Stark would
have challenged the constitutionality of the mandatory injunction
and notice the State Attorney General as required by Tennessee
law.
7 This is contrary to the actual text of the statute.

6
You are. Notwithstanding that any other when you filed your Complaint, the restrain­
ing order was put into place . . . You can sit
there and argue that you have a freedom of
speech, and - but the moment you sat there
and said in this letter referencing your hus­
band, that changed it. App. 55-56
The court further found that Mayor Strickland
qualified as an employer covered within the manda­
tory injunction. App. 55. The court continued, ruling
from the bench:
That [Facebook] post shall be removed today,
and a mandatory injunction will go into effect
that there will be no communication with em­
ployers . . . making further allegations in so­
cial media is completely inappropriate and is
being enjoined. App. 56.
Pamela Stark, who was acting pro se, in response
to the court’s ruling and in an attempt to highlight the
overbreadth of that ruling, made the following argu­
ment to the court:8
Well, Your Honor, I will just with all candor to
the Court say you might as well take me into
custody right now. I have contacted the FBI as
well as having contacted the mayor of Mem­
phis to try and get this addressed. I am saying
that I am a victim of corruption from the
8 In the Order of Contempt, the court indicated that Pamela
Stark’s statements where made after the hearing, however, the
original time stamped transcript shows three seconds elapsed be­
tween the court’s ruling at Ms. Stark’s statements.

7
Memphis Police Department, and I am going
to pursue every course of action I have and . . .
App. 56.
Though Pamela Stark had not mentioned the Facebook post, the court interrupted her argument and
questioned her as to her intent to remove the Facebook
post. App. 56. Pamela Stark replied negatively. App. 56.
At this time, the court ordered Pamela Stark to be
taken into custody. App. 57. The court then found Ms.
Stark to be in “direct contempt of court” for willfully
refusing to comply with this Court’s orders and or­
dered her “held in custody until such time that you
change your position, and you apologize to this Court.”9
App. 57.
Friends of Pamela Stark summoned an attorney to
address the court on her behalf.10 App. 26. An appeal
bond was requested and denied by the court.11 Pamela
Stark, after being held in handcuffs for approximately
four hours, agreed to remove the Facebook post and
was released from custody.12 App. 26.
9 It is unclear whether the court based the contempt finding
on the advisory opinion, as memorialized in the Order on Petition
for Restraining Order, that Ms. Stark had already violated the
mandatory injunction or on a prospective position that she would
not remove the post ‘today’ as ordered from the bench.
10 The court had no part in procuring counsel for Pamela
Stark, neither advising of a right to, appointing or summoning.
11 As mootness only became an issue when raise by the court
in during oral arguments, those arguments are the only proof
within the record of the denial of bail.
12 The court did not require Ms. Stark to remove the Facebook post at that time, within the presence of the court, but

8

Initially the court did not enter a separate order
on the contempt finding but included within the Order
on Petition for Restraining Order that Pamela Stark
had intentionally violated the mandatory injunction
with 1) the Facebook post, 2) the letter to Mayor Strick­
land, and 3) subpoenaing Memphis police officers.13
App. 29-30. Additionally, this advisory opinion14 seem­
ingly found harassment as the requisite standard.
However, approximately six weeks later the court en­
tered an order finding Pamela Stark in ‘direct civil con­
tempt.’15 App. 25.
Pamela Stark filed a timely appeal with the Ten­
nessee Court of Appeals seeking review of both the con­
tempt finding and the restraining order. App. 1. While
only the contempt order qualified as a final order, Ten­
nessee law allows “upon filing of a single notice of ap­
peal in a civil case, issues may be brought up for review
seemingly allowed, as originally ordered, that the post “come[s]
done today.”
13 The only proof submitted concerning contact with police
officers involved Ms. Stark subpoenaing officers for depositions.
These officers were not deposed out of concern for additional con­
tempt findings. See transcript, App. 43.
14 Neither within the Petition for Restraining Order, nor at
hearing were any allegations of violating the mandatory injunc­
tion advanced by Mr. Stark.
15 Joe Stark’s attorneys filed a Motion to Alter/Amend the re­
straining order entered by the court along with a proposed order
attempting to have the court detail Ms. Stark having been taken
into custody and to change the narrower language of the restrain­
ing order to reflect the broader language of the court’s oral ruling.
This motion was denied, but the court did enter an order on con­
tempt.

9
and relief pursuant to the rules by any party.” Tenn. R.
App. R Rule 3(h). Also see Tenn. R. App. P. Rule 13(a).
In response to the appeal, two separate Motions to
Dismiss were filed attacking the reviewability of the
restraining order. App. 20-24. The Court of Appeals de­
nied each of these motions. App. 20-24. However, upon
finding the contempt issue moot, the Court of Appeals
then refused to review the restraining order seemingly
finding it was not properly before the court. App. 1-19.
In addition to the state court proceedings, Pamela
Stark filed a Declaratory Action in the United States
Federal District Court for the Western District of Ten­
nessee, Western District. App. 63-70. This case was dis­
missed on abstention principles. App. 63-70. A civil suit
is also currently pending in the same district court con­
cerning the underlying issues of the Facebook post and
the actions taken by the City of Memphis following is­
suance of the restraining order.16
XI.
REASONS FOR GRANTING THE WRIT
The importance of supervising the threat to con­
stitutional rights within the exercise of judicial con­
tempt authority and judicially imposed prior restraint
of First Amendment Rights is apparent by the sheer
volume of legal analysis the Court has dedicated to
these issues. However, the issues in this case involve
whether those prior holdings can be avoided through a
16 See Federal Complaint, No. 19-cv-2396.

10
trial court simply altering the traditional nature of
the orders, procedures and judgments associated with
those firmly established constitutional limitations and
create mootness which prevents appellate review in so
doing.
The state trial court below utilized what can best
be described as hybrid contempt proceedings to impose
hybrid sanctions. This hybrid contempt manipulated
established law and rendered Pamela Stark’s constitu­
tional rights impotent. In the absence of appellate re­
view, a dangerous precedent is created which provides
a mechanism through which the prior mandates of the
Court, promulgated legislation and the Constitution
can be avoided.
The nature of the deprivation of constitutional
protections is so egregious that the Court has inti­
mated such would never happen and has singularly
given specific assurances of intervention should such
an unlikely event occur. Pamela Stark now asks this
Court to stand behind those assurances not only for
herself, but also for any number of future litigants that
may be subject to egregious civil rights violations in­
flicted by a lone judge.
(A) Contempt Authority
The importance of supervising the exercise of ju­
dicial contempt authority on both the federal and state
level is best illuminated by the prior decisions of the
Court. See Mine Workers v. Bagwell, 512 U.S. 821
(1994) discussing Hicks v. Feiock, 485 U.S. 624, 631

11
(1988); Also see Bridges v. California, 314 U.S. 252,260
(1941). The history of contempt authority generally
“demonstrates the unwisdom of vesting the judiciary
with completely untrammeled power to punish con­
tempt and makes clear the need for effective safe­
guards against the power’s abuse.” Bloom v. Illinois,
391 U.S. 194, 207 (1968). “Contumacy ‘often strikes at
the most vulnerable and human qualities of a judge’s
temperament’ (Mineworkers citing Bloom at 202) and
its fusion of legislative, executive and judicial powers
‘summons forth . . . the prospects of‘the most tyranni­
cal licentiousness’.” Mine Workers at 831, quoting
Young v. U.S. ex rel. Vuitton et fils S.A., 481 U.S. 787,
822 (1987) (Scalia, J., concurring in judgment), quoting
Anderson v. Dunn, 6 Wheat 204, 228 (1821). Thus,
“[o]ur jurisprudence in the contempt area has at­
tempted to balance the competing concerns of neces­
sity and potential arbitrariness by allowing a
relatively unencumbered contempt power when its ex­
ercise is most essential and requiring progressively
greater procedural protections when other considera­
tions come into play.” Mine Workers at 832.
1. Summary Contempt Authority
Summary contempt authority, with reduced proce­
dural protections, raise even greater concerns for
abuse. “Its exercise is a delicate one and care is needed
to avoid arbitrary or oppressive conclusion.” Cooke v.
United States, 267 U.S. 517, 539 (1925). As such,
“[slummary punishment always and rightly is re­
garded with disfavor and, if imposed in passion or

12
pettiness, brings discredit to a court as certainly as the
conduct it penalizes.” Sacher v. United States, 343 U.S.
1, 8. (1952). Thus, summary contempt proceedings are
“reserved for exceptional circumstances, such as acts
threatening the judge or disrupting a hearing or ob­
structing court proceedings.” Harris v. United States,
382 U.S. 162,165 (1965). Further, the Court has noted
summary sanction should be “to the least possible
power adequate to the end proposed” {In re McConnell,
370 U.S. 230, 234 (1962)). “Any broader contempt
power than this . .. would permit too great of inroads
on the procedural safeguards of the Bill of Rights.
Ibid., quoting In re Michael, 326 U.S. 224, 227. Thus, if
liberty is at issue some measure of due process must
be afforded. “For an accused contemnor facing a jail
sentence, his ‘liberty is valuable and must be seen as
within the protection of the Fourteenth Amendment.’
Its termination calls for some orderly process, however,
informal.” Taylor u Haynes, 418 U.S. 488, 500 (1974)
quoting Morrisey v. Brewer, 408 U.S. 471,482 (1972).
2. Other Contempt Considerations.
As noted in Mineworkers, “progressively greater
procedural protections [have been afforded] when
other considerations come into play.” Ibid, at 832. Be­
cause contempt sanctions imposed in conjunction with
First Amendment Rights or Legal Advocacy raise ad­
ditional constitutional concerns, the Court has noted
particular importance in appellate supervision. “The
history of the power to punish for contempt and the
unequivocal command of the first amendment serve as

13
a constant reminder that freedom of speech and of the
press should not be impaired through the exercise of
that power ...” Craig v. Harney, 331 U.S. 367 (1947).
Likewise, contempt sanctions within the context
of legal advocacy are particularly suspect. “That con­
tempt power over counsel, summary or otherwise, is
capable of abuse is certain. Men who make their way
to the bench sometimes exhibit vanity, irascibility, nar­
rowness, arrogance and other weaknesses to which
human flesh is heir.” Sacher at 12. Thus, in singular
fashion, the Court has made assurances that such
“summary convictions during trial that are unwar­
ranted by the facts will not be invulnerable to appel­
late review.” Codispoti v. Pennsylvania, 418 U.S. 506,
517 (1974). “The profession knows that no lawyer is at
the mercy of a single federal judge.” Sacher at 12. “Be­
fore punishment takes effect he may have appeal on
law and fact.” Ibid. Not condemned merely by the im­
pulse of one lone and hostile judge.” Ibid. “But that
there may be no misunderstanding, we make clear that
this Court, if its aid be needed will unhesitatingly pro­
tect counsel in fearless, vigorous and effective perfor­
mance.” Sacher at 13.
(B) Mootness
Despite the constitutional magnitude of the issues
involved, and near universal recognition of the poten­
tial for abuse with summary contempt authority (see
State v. Turner, 914 S.W.2d 951, 956-959 (Tenn. Crim.
App. 1995)), Pamela Stark’s appeal was dismissed

14
without even a cursory review. The state appellate
court’s dismissal was based upon a finding of mootness.
App. 1-18. However, this dismissal is not justified by
either the principles underlying mootness or due pro­
cess considerations. Instead, mootness operates to both
compound the constitutional error at issue and to cre­
ate a precedent through which constitutional protec­
tions can be avoided.
1. Underlying Principles and Due Process
Consideration
The concept of mootness operates in conjunction
with Article III of the Constitution to assure the judi­
ciary remains within the confines afforded by our tri­
partite system. Flast v. Cohen, 392 U.S. 83, 95 (1968).
Also see United States Parole Comm’n v. Geraghty, 445
U.S. 388 (1980). Thus, it serves to prevent the creation
of law through advisory opinions based on hypothetical
or academic scenarios. Aetna Life Ins. Co. v. Haworth,
300 U.S. 227, 240-241 (1937). As such, courts are pro­
hibited from rendering opinions in the absence of con­
crete facts or where any judgment rendered would be
ineffectual. Ibid. “Simply stated, a case is moot when
the issues presented are no longer ‘live’ or the parties
lack a legally cognizable interest in the outcome.”
Powell v. McCormack, 395 U.S. 468, 469. (1969). How­
ever, the mootness doctrine retains a “flexible charac­
ter [and] ... is not a legal concept with a fixed content
or susceptible to scientific verification.” Geraghty at
400.

15
Over a century ago, the Court recognized that
mootness may necessitate drawing a distinction be­
tween judgments where “the acts . . . had been com­
pletely executed” and cases involving orders that
though expired touched upon “broader considerations.”
So. Pac. Terminal Co. u. Int. Comm. Comm., 219 U.S.
498, 514-515 (1911). As such, where the judgment con­
tinues to potentially affect the legal relations of the
parties, the case remains justiciable as in fairness it
cannot be considered resolved. Ibid. Additionally, moot­
ness is inapplicable when a party continues to suffer
collateral effects of the judgment after expiration of the
sentence, as a “substantial stake” in the controversy
continues. Carafas v. Lavellee, 391 U.S. 234,237 (1968).
The state appellate court found mootness based
upon the civil designation of the contempt finding,
Pamela Stark having gained her release from incarcer­
ation, and the sanction being remedial in nature. App.
11-16. However, this mechanical application of moot­
ness fails to examine the broader consideration of a
contempt sanction imposed during an ongoing litiga­
tion. Though contempt findings are considered sui gen­
eris in nature, when the underlying action is still
pending, they are not fully executed and continue to
affect the legal relations of the parties. Indeed, the
Court has recognized the mere threat of potential con­
tempt proceedings is sufficient to create a continuing
chilling effect. Nebraska Press v. Stuart, 427 U.S. 539,
559 (1976).
The trial court’s contempt sanction was inherently
coercive and purposed specifically to affect the ‘legal

16
relations of the parties’ throughout the litigation. The
sanction arose contemporaneous to the issuance of the
restraining order and was imposed based on Pamela
Stark vocalizing concerns over the breadth of the re­
straint. App. 56-57. The trial court ordered Pamela
Stark held in custody until she agreed in advance to
comply with that order. App. 57. Thus, the court’s in­
tent was clearly not merely remedial but was wielded
to ensure future compliance. The restraining order re­
mains in effect to date. If the mere threat of contempt
proceedings is sufficient to chill future conduct, how
many degrees colder is the effect when sanctions are
imposed sua sponte to prospectively ensure compli­
ance?
Additionally, the collateral consequences of the
contempt finding have not only “survive the satisfac­
tion of the sentence imposed” but they will continue
after the restraining order is lifted and for the dura­
tion of Pamela Stark’s professional career. Carafas at
237-240 (1968). The appellate court discounted any
collateral effects based on the civil designation of the
contempt finding. App. 14-18. Though collateral conse­
quence issues often arise within the context of criminal
convictions, nothing inherent within this distinction
lessens the existence of a “substantial stake” in the
controversy based on “continuing] to suffer serious
disabilities.” Carafas. Likewise, this distinction does
not lessen the professional consequences of the trial
court’s contempt finding on Pamela Stark’s career.
Appellate court opinion notwithstanding, neither
the Tennessee Rules of Professional Conduct nor

17
character and fitness portions of applications for ad­
mission to the bar of other states reference contempt
sanctions. See Tenn. S. Ct. R. 8, TRP 8.4(g). Instead,
these organizations are concerned with violations of
court orders. The trial court not only entered an order
finding Pamela Stark in “Direct Civil Contempt”17 but
also specifically opined within the Order on Petition for
Restraining Order that she had committed multiple,
intentional violations of the mandatory injunction al­
ready in effect. These findings were sua sponte, never
lodged, never litigated and never subject to appellate
review. However, these findings operate as proof that
Pamela Stark has violated lawful court orders18 for the
duration of her legal career. Thus, it remains a burden
by depriving Pamela Stark her best defense - that she
was “not properly convicted.” Fiswick v. United States,
329 U.S. 211, 221-223 (1946).
2. Compounding of Constitutional Error
In the case at issue, as with Sibron, none of the
“imperative policies behind the constitutional rule
against entertaining moot controversies” are present
and “there is nothing abstract, feigned, or hypothetical
about it.” Sibron v. New York, 392 U.S. 40 at 57. Instead,
17 The Order on Direct Civil Contempt appears to be limited
to the events of February 7, 2019.
18 The Tennessee Appellate Court dismissed the underlying
restraining order as not final upon applying mootness to the con­
tempt findings. However, since the restraining order is not re­
lated to the issue within the divorce, the order will never become
final.

18
mootness operates to both compound the constitu­
tional error at issue and to create a precedent through
which constitutional protections can be avoided.
“From the beginning [the Court] has disposed
of moot cases in the manner ‘most consonant
to justice ... in view of the nature and char­
acter of the conditions which have cause the
case to become moot . . . The principal condi­
tion to which we have looked is whether the
party seeking relief from the judgment below
caused the mootness by voluntary action.”
Bancorp Mortg. Co. u. Bonner Mall, 513 U.S.
18, 24 (1994).
Though these statements arose specifically within
the context of vacatur, the Court’s general holdings re­
garding mootness have equally rejected mechanical
application in favor of fundamental fairness. See
Sibron at 50-58. [discussing “the vital importance of
keeping open avenues of judicial review of depriva­
tions of constitutional rights.”] Also see Carafas at 239.
[“There is no need in the statute, Constitution or sound
jurisprudence for denying petitioner his ultimate day
in court.”] Instead, mootness holdings have been con­
sistent with the proposition that “a party who seeks
review of the merits of an adverse ruling, but is frus­
trated by the vagaries of circumstance, ought not in
fairness be forced to acquiesce in the judgment.” Ban­
corp at 18-24. These statements suggest that mootness
must be consistent with due process, or fundamentally
fair.

19
The state appellate court’s mootness finding relied
almost exclusively on Pamela Stark purging herself of
the contempt thereby securing her release from incar­
ceration. App. 12-14. However, the Court has been clear
that “mere release of the prisoner does not mechani­
cally foreclose consideration of the merits.” Sibron at
51. Indeed, the Court found the suggestion of mootness
constitutionally repugnant when based on “a blanket
denial of bail” that prevented access to the appeal
courts prior to release. Ibid.
In the case at issue, the trial court denied Pamela
Stark bail and ordered her held indefinitely.19 Thus,
under the appellate court’s finding, Pamela Stark was
required to either acquiesce to an unlawful judgment
or endure months or years of being unlawfully impris­
oned until an appeal could be perfected. In Sibron, the
Court noted disbelief that “people deprived of constitu­
tional rights at this level should be left utterly remedi­
less and defenseless.” Ibid. However, the vagaries of
the circumstances in this case placed Pamela Stark in
just such a position. Amid an absolute vacuum of due
process, she was deprived the most basic constitutional
right - liberty. Hence, to deny review on the merits,
leaving Pamela Stark to continue to suffer under the
collateral effects of the judgment and the continuing
infringement on her First Amendment rights, serves to
compound the very errors at issue.

19 As mootness only became an issue when raise by the court
in during oral arguments, those arguments are the only proof
within the record of the denial of bail.

20

The vagaries of the circumstances in the case at
issue may be best illuminated by comparing them to
the cases cited within the state appellate court opinion.
App. 12-16. Unlike each of the contempt related cases,
Pamela Stark was not before the court based on a Pe­
tition for Contempt or even an accusation of contempt.
Pamela Stark’s sole accuser was the trial court. Thus,
she was not provided any notice of the accusations or
opportunity to defend. Indeed, until the trial court en­
tered the Order on Petition for Restraining Order,
Pamela Stark was not even aware that she had been
adjudged to have “intentionally violated” the manda­
tory injunction by 1) posting the Facebook commen­
tary, 2) writing Mayor Strickland and 3) subpoenaing
police officers for depositions. App. 28-31. Further, un­
like the cases cited, there had not been a previously
litigated order on which the contempt findings or sanc­
tions were based. Instead, the contempt findings, or
intentional violations of the mandatory injunctions,
arose from the trial court’s non-litigated interpreta­
tions. Thus, Pamela Stark had no ability to challenge
the court’s order(s) through appellate review prior to
contempt sanctions being imposed.
Though the trial court eventually designated the
contempt findings as “Direct Civil Contempt,” the man­
ner in which the sanction was imposed was clearly
summary in nature. However, summary proceedings
are only available within a subsection of criminal con­
tempt proceedings. See Tenn. R. Crim. P, Rule 42. Also
see Doe v. Bd. of Pro. Responsibility, 104 S.W.3d 465,
474 (Tenn. 2013) (“Civil contempt occurs when a

21
person does not comply . . . and an action is brought by
a party.”). Thus, the trial court basically created a hy­
brid proceeding which combined a restraining order
hearing with an un-petitioned contempt proceeding.
Additionally, the trial court created a hybrid contempt
sanction which imposed coercive, civil sanctions to pun­
ish conduct summarily. This sanction exceeded the lim­
itations imposed both statutorily and constitutionally.
See Tenn. Code. Ann. § 29-9-103 (maximum punish­
ment fifty dollars or imprisonment not exceeding ten
days). Though Tennessee allows for the imposition of
coercive, indeterminate sentencing for contempt, such
sanctions are limited to “an omission to perform an act”
(Tenn. Code Ann. § 29-9-104) or “performance of a for­
bidden act.” Tenn. Code Ann. § 29-9-105. Pamela Stark
neither failed to perform nor performed any forbidden
act within the presence of the trial court. App. 32-58.
To the extent that the Facebook commentary violated
the trial courts interpretation of the mandatory injunc­
tion, the actual posting occurred almost two months
prior to the hearing. App. 46, 71-76. The trial court did
not order Pamela Stark to remove the post within its
presence, but that the post would be removed that day.
App. 56. Further, nothing within the proceedings indi­
cated that incarceration was “the least possible power
adequate” or that imposition of a continuing, daily fine
would not have equally accomplished “the ends pro­
posed.” In re McConnell at 234.

22

(C) Restraining Order
Upon determining the contempt finding was moot,
the state appellate court refused to review the jurisdic­
tional and constitutional challenges to the restraining
order. App. 10-11. This refusal was based upon a find­
ing that the restraining order was not a final order and
appeal of that matter was not perfected. App. 10-11.
Though the state appellate court found only the con­
tempt order qualified as a final order, Tennessee law
allows “upon filing of a single notice of appeal in a civil
case, issues may be brought up for review and relief
pursuant to the rules by any party.” Tenn. R. App. P.
Rule 3(h). Also see Tenn. R. App. P. Rule 13(a). In re­
sponse to the appeal, two separate Motions to Dismiss
were filed attacking the reviewability of the restrain­
ing order. App. 20-24. The state appellate court denied
each of these motions. App. 20-24. As the issue of moot­
ness was not raised by a party but was a sua sponte
finding of the state appellate court, Pamela Stark had
no reason to pursue a separate notice of appeal. Absent
the mootness finding, review of the restraining order
was inherent to review of the contempt finding. See
Konvalinka v. Chattanooga-Hamilton Cty. Hosp. Auth.,
249 S.W.3d 346, 354-55 (Tenn. 2008) (reviewing ele­
ments of contempt).
State appellate court finding notwithstanding,
the restraining order was as final of a judgment as it
ever could be. Traditionally, ancillary jurisdiction to is­
sue restraining orders is premised on providing the
trial court the authority necessary to prevent conduct
from basically rendering judgment ineffective prior to

23

adjudication on the merits. Tenn. R. Civ. R 65.04. How­
ever, the conduct and concerns associated with the re­
straining order simply were not pending before the
trial court or any other state court. App. 71-75. As such,
those issues will never be adjudicated, and the order
will never become a final judgment. Thus, as with the
contempt finding, it will forever escape review.
Though Tennessee law would have allowed review
of the restraining order to proceed, the appellate court’s
refusal to consider forecloses any future avenues of re­
view of this order due to the vagaries of the circum­
stances. Presumably, at some point the restraining
order will be resolved; however, there is no termination
date within the order itself. App. 18-21. Thus, Pamela
Stark continues to suffer the enjoinment of her First
Amendment Rights and remains subject to additional
contempt sanctions. Indeed, a Petition for Civil and
Criminal Contempt is currently pending based upon
conduct alleged to have violated the restraining order.
App. 76-82. Pamela Stark denies the conduct alleged
violates the restraining order; however, should the trial
court disagree, she again faces incarceration which will
again become moot before an appeal could be perfected.
While the refusal to review the challenges to the
restraining order compounds the effect mootness has
on Pamela Stark, it also creates a horrific precedent.
This precedent allows trial courts to usurp subject
matter jurisdiction over issues not before them to re­
strict the constitutional rights of parties based on per­
sonal jurisdiction on unrelated, pending litigation. In
the case at issue, neither Mr. Stark or the Memphis

24
Police Department could have brought and independ­
ent suit against Pamela Stark for posting the Facebook
commentary. Yet, the trial court, used ancillary juris­
diction to accomplish what an independent lawsuit
would have been constitutionally prohibited from do­
ing. Thus, the trial court became a vehicle for the very
civil rights violations they are sworn to defend against.
In the case at issue, this is not even consistent with the
mandatory injunction. Whether a Facebook post can
fairly be considered “in the presence of . . . [a] party’s
employer” aside, Pamela Stark was not divulging infor­
mation that was not already known by the employer.
App. 60. As MPD was in charge of the investigation,
they were well aware of the accusations. App. 47. It was
only the public that was unaware.
Further, the contempt finding creates a precedent
which allows trial courts to imprison summarily with­
out the requisite showing of misconduct. Though
within the contempt order, the trial court character­
ized Pamela Stark’s statements as having occurred af­
ter the hearing, the official, time-stamped transcript
establishes that her statements were uttered within
three seconds of the trial court’s ruling. If men, and
presumably women who exhibit “vanity, irascibility,
narrowness, arrogance and other weaknesses to which
human flesh is heir” still make their way to the bench,
then they have a road map for imposing contempt out­
side the traditional limits. Sacher at 12. Litigants who
argue that they will not be able to pay the support or­
der, are subject to being incarcerated prospectively un­
til they agree that they will pay what is ordered

25

irrespective of having missed any actual payment or a
contempt petition being filed.
XII.
CONCLUSION
Neither the contempt finding nor the application
of mootness in this case serve the ends for which they
were developed. However, this case raises all of the
concerns associated with their use. Despite over a cen­
tury of legal opinions and legislative restrictions to en­
sure that safeguards are established to protect against
abuse within the wielding of judicial contempt author­
ity, Tennessee eviscerated these efforts in one fell
swoop. The contempt proceeding and sanction at issue
is the pinnacle of associated constitutional concerns.
The sanction was imposed in a summary proceeding,
before a magistrate embroiled in the proceedings, de­
void of procedural safeguards and resulted in a loss of
liberty. Further, the contempt arose within the context
of First Amendment Rights and legal advocacy. How­
ever, the record does not support that Pamela Stark
committed any misconduct which necessitated the im­
mediate actions of the trial court, much less incarcera­
tion. There are no allegations that her words were
uttered in a loud or boisterous tone or in any way in­
terrupted any court proceedings. Though the trial
court had issued its ruling, Pamela Stark is certainly
not the first legal advocate to attempt to continue legal
argument after the tribunal has ruled.

26

Likewise, the application of mootness is not re­
quired based on the rendering of an advisory opinion
on hypothetical facts which would result in an ineffec­
tual judgment. Further, as the case solely involves in­
dependent acts of the judiciary, powers delegated to
other governmental branches are not being usurped.
Instead, this case involves constitutional issues specif­
ically delegated to the judiciary. Despite the repeated
holdings by this Court of the importance of appellate
supervision in such circumstances, the state appellate
court refused to review the merit's of Pamela Stark’s
constitutional challenges. This refusal arose from the
nature of the trial courts sanction and not any lack of
diligence by Pamela Stark. Further, Pamela Stark will
continue to labor under the collateral consequences of
the trial court’s rulings. This perhaps makes Pamela
Stark’s now infamous Facebook commentary particu­
larly apropos: “who do you turn to when those sworn to
serve and protect and enforce the law, don’t?”
Respectfully submitted,
Pamela Dlane Stark
Pro Se
673 North McLean Boulevard
Memphis, Tennessee 38107
901-488-5817
pamand3ds@aol. com

